Report No. D-2010-030                   January 6, 2010




        Utility Tax Relief Program in the Netherlands
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
FMWRC                 Family and Moral, Welfare, and Recreation Command
IMCOM-Europe          U.S. Army Installation Management Command, Europe Region
LQA                   Living Quarters Allowance
VAT                   Value Added Tax
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON , VIRGINIA 22202-4704




MEMORANDUM FOR COM MANDER, U.S. EUROPEAN COMMAND
               U.S. ARMY INSTALLATION MANAGEMENT COMMAND
               AUDlTOR GENERAL, DEPARTMENT OF T HE ARMY

SUBJECT: Utility Tax Relief Program in the Netherlands (Report No. D-20 I 0-030)

We are providing thi s report for your infonnation and use. We considered management comments
on a draft of thi s report when preparing the final report.

Anny comments conformed to the requ irements ofDOO Directive 7650.3 and left no unresolved
issues. Therefore, we do not require any additional comments.

We appreciate the courtesies extended 10 the staff. Please direct questions to Mark A.   rYeS   at
DSN 314-483-6055.




                                            Acting Assistant Inspector General
                                            Readiness, Operations, and Support
This Page Left Blank Intentionally
Report No. D-2010-030 (Project No. D2009-D000JB-0144.000)                      January 6, 2010

               Results in Brief: Utility Tax Relief Program in
               the Netherlands

What We Did                                               What We Recommend
Our objective was to determine whether DOD is             	 Regional Director, U.S. Army Installation
effectively using the utility tax relief program in          Management Command, Europe Region,
Germany and the Netherlands. This report                     develop regulatory guidance that clearly
addresses DOD compliance with host-nation                    outlines the policies and procedures
requirements for the utility tax relief program in           necessary to operate a utility tax relief
the Netherlands. A second report will address                program in the Netherlands that is in
the utility tax relief program in Germany.                   compliance with host-nation requirements
                                                             and monitor and assist in implementing the
What We Found                                                guidance.
The U.S. Army Installation Management                     	 Garrison Commander, U.S. Army Garrison
Command, Europe Region, internal controls for                Schinnen, modify the current utility tax
the utility tax relief program in the Netherlands            relief program to comply with the guidance
were ineffective. We identified internal control             developed by Regional Director, U.S. Army
weaknesses in the implementation and operation               Installation Management Command, Europe
of the program. DoD did not guarantee                        Region.
payment of its participants' tax-free utility bills
as required by the Netherlands Ministry of                Management Comments and
Finance in order to receive tax-exempt utilities.         Our Response
Noncompliance with the host-nation
                                                          The Regional Director, U.S. Army Installation
requirements (whether intentional or not) may
                                                          Management Command, Europe Region, and
negatively impact international relations as well
                                                          the Garrison Commander, U.S. Army Garrison
as increase the chance of the Netherlands
                                                          Schinnen, comments were responsive to our
Government revoking the tax relief privilege.
                                                          recommendations. Management is taking action
                                                          to bring the utility tax relief program in the
                                                          Netherlands into compliance with host-nation
                                                          tax requirements. Proposed actions were
                                                          sufficient for all recommendations. Therefore,
                                                          we do not require any additional comments.




                                                      i
Report No. D-2010-030 (Project No. D2009-D000JB-0144.000)          January 6, 2010

Recommendations Table

Management                      Recommendations             No Additional Comments
                                Requiring Comment           Required
Regional Director, U.S. Army                                1.a and 1.b
Installation Management
Command, Europe Region
Garrison Commander, U.S. Army                               2
Garrison Schinnen




                                          ii
Table of Contents

Introduction                                                      1


      Objectives                                                  1

      Background                                                  1

      Review of Internal Controls                                 2


Finding. Noncompliance with Host-Nation Tax Requirements          3


      Management Actions                                          4

      Recommendations, Management Comments, and Our Response      4


Appendices

      A. Scope and Methodology                                    6

      B. Criteria                                                 7

      C. Updated Portion of U.S. Army Europe Regulation 215-6     9


Management Comments

      U.S. Army Installation Management Command, Europe Region   12 

      U.S. Army Garrison Schinnen                                14 

This Page Left Blank Intentionally
Introduction
Objectives
Our objective was to determine whether DOD is effectively using the utility tax relief
program in Germany and the Netherlands. This report addresses DOD compliance with
host-nation requirements for the utility tax relief program in the Netherlands. We will
issue a second report addressing the utility tax relief program in Germany. See
Appendix A for a discussion of the scope and methodology related to the objective.

Background
Utility Tax Exemption Criteria
DOD personnel 1 are generally not exempt from paying taxes imposed by a foreign
country on the purchase of goods and services unless there is a tax agreement that
provides an exception. The Ministry of Finance letter, “Exemption from Energy Control
Tax,” November 10, 1997, serves as the Netherlands Government approval for DOD
personnel to receive tax relief on their individual utility bills.

The Regional Director of the U.S. Army Installation Management Command, Europe
Region (IMCOM-Europe), has been delegated the responsibility to administer tax relief
policies, procedures, and pricing in the Netherlands. See Appendix B for a list of criteria.

Utility Tax Avoidance Program in the Netherlands
The Family and Morale, Welfare and Recreation Command (FMWRC), a subordinate
command of U.S. Army Installation Management Command, administers the Utility Tax
Avoidance Program (the Program) in the Netherlands through the U.S. Army Garrison,
Schinnen, Value Added Tax (VAT) Office. The Program is voluntary and gives DOD
personnel the opportunity to receive tax-free electricity, gas, and water when living in
private housing in the Netherlands. At the time of our audit, the tax rate on utilities in the
Netherlands was 19 percent. The Schinnen VAT office charges DOD personnel a
one-time, non-refundable $77 fee to offset the costs of administering the Program. In
general, the Program participants personally benefit from the savings on their utility bills.
However, for DOD civilians receiving Living Quarters Allowance (LQA), 2 DOD realizes
the cost savings through reduced LQA payments, unless the civilian’s housing expenses
exceed the maximum allowable LQA.




1
 For the purpose of this report, DOD personnel refers to military and civilian personnel.

2
 DOD civilian employees who are U.S. citizens living in foreign areas may receive a Living Quarters 

Allowance. This allowance reimburses employees for the cost of living quarters up to a specified maximum

amount and covers costs such as rent and utilities. 




                                                   1

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for IMCOM-Europe. The IMCOM-Europe internal controls did not
effectively ensure the proper implementation and operation of the Program in the
Netherlands. Specifically, IMCOM-Europe officials had not issued written guidance or
administered adequate oversight, which resulted in the Program not operating as
intended. Implementing Recommendations 1.a and 1.b will improve the internal control
weaknesses and bring the DOD utility tax relief program into compliance with
host-nation requirements. We will provide a copy of the report to the senior official
responsible for internal controls in IMCOM-Europe.




                                             2

Finding. Noncompliance with Host-Nation
Tax Requirements
DOD is not complying with the requirements established by the Netherlands Ministry of
Finance for DOD personnel to receive tax-exempt utilities. Specifically, the Program
administered by the Schinnen VAT office does not guarantee payment of its participants’
tax-free utility bills. The Program is not operating as intended because IMCOM-Europe
has not provided written guidance or adequate oversight. Noncompliance with the
host-nation requirements (whether intentional or not) may negatively impact international
relations as well as increase the chance of the Netherlands Government revoking the tax
relief privilege.

Utility Tax Exemption
The stationing agreement 3 between the Netherlands and the United States does not
provide utility tax exemption to DOD personnel. However, the Netherlands Ministry of
Finance granted this exemption in 1997 with the following conditions:

                the utility “delivery is made by order of, and for account of” the DOD;
                the bill is paid by the individual, with DOD guaranteeing payment; and
                the individual has a separately metered utility bill.

In addition, utility providers have to be willing to offer tax-free service. Although the
Netherlands Government has granted tax relief privileges to DOD personnel, they do not
require utility companies to offer tax-free services.

Payment of Tax-Free Utility Bills
Under the Program currently administered by the Schinnen VAT office, DOD does not
guarantee payment of participants’ tax-free utility bills. Unpaid bills are written off as a
loss by the utility companies, and not paid by the Schinnen VAT office. IMCOM-Europe
representatives were unable to tell us why the Program was not guaranteeing payment of
the utility bills because there was a lack of documentation and continuity on the subject.

DOD Guidance and Oversight
There is currently no DOD published regulation governing the administration of
tax-exempt utilities in the Netherlands. The U.S. Army Europe Regulation 215-6,
“Morale, Welfare, and Recreation Individual Tax-Relief Program,” January 24, 2003, 4
states that it is the responsibility of the Regional Director of IMCOM-Europe to
administer tax relief policies, procedures, and pricing in Belgium, Germany, and the


3
  The Soesterberg Agreement, August 13, 1954, outlines the terms between the United State and the 

Netherlands for the stationing of U.S. Armed Forces in the Netherlands.

4
  U.S. Army Europe Regulation 215-6, “Morale, Welfare, and Recreation Individual Tax-Relief Program,” 

August 3, 2009, was issued after our fieldwork.



                                                  3

Netherlands. However, the regulation only provides guidance for tax relief in Germany
and does not provide guidance for the Netherlands. Additionally, there is a lack of
oversight from IMCOM-Europe officials over the administration of the Program in the
Netherlands. Guidance and oversight are needed to ensure the Program in the
Netherlands complies with host-nation requirements.

Risk of Noncompliance
Noncompliance with the requirements of receiving utility tax exemption (whether
intentional or not) may negatively impact international relations as well as increase the
chance of the Ministry of Finance revoking the tax relief privilege. Additionally, utility
providers may be less willing to offer tax-free services if payment is not guaranteed. For
example, one of the main providers of gas and electricity to DOD personnel in the
Schinnen area stopped providing tax-free utilities on January 1, 2009. At the time of our
audit, only two companies 5 were participating in the Program in the Schinnen commuting
area–one water provider and one gas and electricity provider. If DOD personnel lose the
ability to receive tax-free utilities, then Program participants’ utility bills will increase by
19 percent. Military members and non-LQA recipients will personally bear the
additional costs, while DOD will bear the additional costs for LQA recipients (as long as
the recipient’s LQA is below the maximum allowed).

Management Actions
On November 24, 2009, IMCOM-Europe issued a revised U.S. Army Europe 

Regulation 215-6, which included guidance for the Netherlands utility tax relief program. 

See Appendix C for the section of the revised regulation that pertains to the utility tax

relief program. 


Recommendations, Management Comments, and Our
Response
1. We recommend that the Regional Director, U.S. Army Installation Management
Command, Europe Region:

        a. Develop regulatory guidance that clearly outlines the policies and
procedures necessary to operate a utility tax relief program in the Netherlands that
is in compliance with host-nation requirements.

        b. Monitor and assist in implementing the guidance developed.

Regional Director, U.S. Army Installation Management
Command, Europe Region Comments
The Acting Chief of Staff, responding for the Regional Director, agreed and stated that
the U.S. Army has identified the compliance issue, developed regulatory guidance, and


5
 At the time of our audit, a total of eight utilities companies served the Schinnen commuting area–one
water provider and seven gas and electricity providers.


                                                    4

will amend U.S. Army Europe Regulation 215-6 to incorporate the policy and procedures
necessary to operate the utility tax relief program in the Netherlands according to host-
nation requirements. The Acting Chief of Staff also stated that they will monitor the
implementation of the developed policy and procedures by U.S. Army Garrison
Schinnen.

Our Response
The Regional Director, U.S. Army Installation Management Command, Europe Region,
comments were responsive, and the actions meet the intent of the recommendations.

2. We recommend that the Garrison Commander, U.S. Army Garrison Schinnen,
modify the current Utility Tax Avoidance Program to comply with the guidance
developed by Regional Director, U.S. Army Installation Management Command,
Europe Region as a result of Recommendation 1.a.

Garrison Commander, U.S. Army Garrison Schinnen Comments
The Garrison Commander, U.S. Army Garrison Schinnen, agreed and stated that the
U.S. Army will, in coordination with U.S. Army Garrison Benelux, modify the Utility
Tax Avoidance Program to comply with the guidance developed by the Regional
Director, U.S. Army Installation Management Command, Europe Region, in response to
Recommendation 1.a. The Commander also stated that the program will be modified to
comply with the new guidance within 2 months of the date that the guidance is issued.
The Commander further stated that the Garrison will report implementation of the
program modifications to U.S. Army Installation Management Command, Europe
Region.

Our Response
The Garrison Commander, U.S. Army Garrison Schinnen, comments were responsive,
and the actions meet the intent of the recommendations.




                                            5

Appendix A. Scope and Methodology
We conducted this performance audit from February through October 2009 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We reviewed the Program operations at the U.S. Army Garrison Schinnen. We limited
our fieldwork to U.S. Army Garrison Schinnen because IMCOM-Europe identified it as
the only location in the Netherlands with a utility tax relief program.

We reviewed applicable laws, policies, and agreements. We interviewed IMCOM-
Europe and FMWRC officials responsible for the following areas as they relate to the
Program:

      administration,
      policy,
      legal, and
      oversight.

Use of Computer-Processed Data
We did not use computer-processed data during this audit.

Prior Coverage
No prior coverage has been conducted on utility tax relief in the Netherlands during the
last 5 years.




                                            6

Appendix B. Criteria
The following laws, policies, and agreements were applicable to this audit.

	 DOD Regulation 7000.14R, “DOD Financial Management Regulation,” volume 10,
   Chapter 6, “Federal, State, Local, and Foreign Taxes,” February 1996, states that the
   U.S. Government’s right to foreign tax exemptions is based on the tax agreements
   with foreign countries, which are outlined in the Status of Forces or Government tax
   agreements with the foreign countries.

	 DOD Instruction 5100.64, “DOD Foreign Tax Relief Program,” March 30, 2006,
   states that,
               It is DOD policy to secure, to the maximum extent possible, effective
               relief from all foreign taxes wherever the ultimate economic burden of
               those taxes would, in the absence of such relief, be borne by funds
               appropriated or allocated to the Department of Defense or under the
               control of its nonappropriated fund activities.

   When the cost of effective tax relief outweighs the benefit obtained, tax relief will be
   considered impractical. It also states that it is the responsibility of the Commanders
   of the Combatant Commands to “issue management procedures to guide and
   coordinate the administration of the DOD Foreign Tax Relief Program throughout
   their respective areas of responsibility, as appropriate.”

	 The European Command Directive 45-8, “Foreign Tax Relief Program,”
   May 8, 2007, prescribes policies and procedures to implement the DOD Foreign Tax
   Relief Program in the European theater and appoints the Commander of U.S. Army
   Europe as the designated military commander for the DOD Foreign Tax Relief
   Program in Belgium, Germany, and the Netherlands.

	 The U.S. Army Europe Regulation 215-6, “Morale, Welfare, and Recreation
   Individual Tax-Relief Program,” January 24, 2003, states that it is the responsibility
   of the Regional Director of the IMCOM-Europe to administer tax relief policies,
   procedures, and pricing in Belgium, Germany, and the Netherlands.

	 The North Atlantic Treaty Organization, “Status of Forces Agreement,”
   June 19, 1951, is an agreement between the Parties to the North Atlantic Treaty
   regarding the status of their forces and was established to define the status of one
   Party’s forces while in the territory of another Party. However, the decision to send
   forces and the conditions under which they will be sent is subject to separate
   arrangements between the Parties concerned, as long as the conditions are not already
   outlined in the present Agreement.




                                                 7

	 The Soesterberg Agreement, August 13, 1954, is the stationing agreement between
   the Netherlands and the United States. The Agreement does not provide tax
   exemptions to individual members of the U.S. Forces with respect to utilities.


	 The Ministry of Finance letter, “Exemption from Energy Control Tax,”
   November 10, 1997, serves as the Government’s approval for DOD personnel to
   receive tax relief on their individual utility bills.




                                         8

Appendix C. Updated Portion of U.S. Army
Europe Regulation 215-6

   Headquarters                                                                                         Army in Europe
   United States Army Europe
   United States Arm.y Installation Management Command                                                 Regulation 215-6"
     Europe Region
   Heidelberg, Germany

   Headquarters                                                                                                  USAFE
   United States Ai r Forces In Europe
   Ramstein, Germany                                                                                 Instruction 34-102"
                                                                                                          24 November 2009

                                             Morale, Welfare, and Recreation

                                           Individual Tax-Relief Program


           'l"This publication supersedes AE Regulation 215-6/USAFE Instruction 34-102, 3 August 2009.


   For the Commander:

   BYRON S. BAGBY                                                   ROGER. E. BRADY
   Mqjor General, USArmy                                            General, USAF
   Chiefof Stqff                                                    Comm(Older

   Official:




   DWAYNEJ. VIERGUfZ                                                JOHNNIE SEWARD
   Chief Army in EllJ"ope                                           Colonel, USAF
     Document Management                                            Acting Director~ Persormel (Old Manpower



   Summary. This publication provides polley and procedures for administering tax-'free pmchases of
   gooos and selVices in Germany.

   Summary of Change. This revision-

   • Replaces 560th Military Police Company with United States Forces Customs - Europe throughout.

   • Adds information about the management of tax reli ef in Belgium (para 8b).

   • Expands the Utility-Tax Avoidance Program to include the Netherlands (app C) .

   Applicability. This publication applies to authorized members of the U.S. Forces and other Sending
   States with NATO status who are entitled to tax relief through IMCOM- Europe Community Morale,
   Welfare, and Recreation Fund (CMWRF) and USAFE Services Flll1d activities .




                                           PE. Re'g 21 5-6!USAf E   Ins! 34-1 02 . 24 ~Iov, 09




                                                                    9

A I'I'EN I>I X C
UTJUTY-'1':\X i\ VOJl)A NC£ PROCR;\!\ I

C.I . GEi\'ERI\ L

    :I. S"v~Tal military cQlnm uu ities in th ... Anny in Europi' and USAf' E hllV~ tax-relie f l)mCC$ (lUOS)
that provide value_added lax (VAT) relkf Oil lIt ilit ies 10 a<.:livc.duI Y mililary lind alllhuri7;cd til' iliall
rnemlX!11i orlh" U.s. ann~d lurees II'ho li v<: in private r ... nla ls.

       h. 'I"~ procedures in th is appendi x will he adher~ to in Genllo llY and 11'1... N~ hcrl and~ for utiliti es
lax relie f, Ut iliti~-s lax relief in th" Netherlands al so requiTc~ coordinati on" itll Ihe Northcn, Law Center.
cspccia lly lOr the adapt.1\ion of agTe~1ll~n\ willi the util it)' \'~ndor. 'Illat document 1llU!;t he in l'()mplianc~
II il ll th~ writ ten gllidwlec of ea~il hQsllIlIlion.

( '-l , I'RO(;RAi\lI'ROV I S I O~S


    a. 1111l Utility-Tu Avoidauee Program (lJl')\I') prol'idcs WI opport unity to ooillin tllX reli!.'f Oil
individuOJ lllt ilit y hills, VAT r.ul$ as I.'Irrrcntl y 1l~'1 toy the Gen n:m Uo\'l:rnment for various utili ties are as
follows (nt cs may diff.-r ill the Kcth~'flands):

                                                Eh.'Cl ricit '           19 .!'C.;:nt
                                                Natural Gas              19     cot
                                                Water                    7 'reent

    b . Electricil y (Strom) tax 31ld natllral gilS tax (I:1X I'IIles be tween 8 a nd 12 p~TCcut dcp~'T1ding 011 tho!
price per unit) can be !lI'oidcd by joiniug UT AI'.

     c. The Il.:livery o ft lix-f~c utiliti es in Gemlany ull d illt' Nelherlands call be arT:In gcd by an IMCOM-
EUTOP<' F~mi l)' ;\[ora]". Wdfarc_ and Rc.:reation (FMWR) or USAF&S~n iets olliee ~ ubjcct to lh(
1'0110\\ ing "ondit iolls :

        ( I ) The utility provider is willing to ... Ill er into     ~   d..'liI-eI')'   l, grC<lm~1l1   with th e 10C:ll TRO,

       (2) Utili lics are deli vc red and b ill cd to aUlh"ri'l:ed 11lembers orllll, U.S. forces. T,,-\: e.~ 1I1ption iG
not .wthorized if the bill is made o utlo a plTSon Ilho d~5 not hUI'e priI1kg~-s (for example. aO~'flnaJl or
Dulch hmd lord).

        (3) U.S. Forces Hl emhcrs do not ord cr utilili es on the ir own wi th out the ranicipation of the tllX-
n:lief alld LlT AP umce. Th ... me o f il1di l' idl~11 tax-rdie f VA l'. rc1 i1.,r forlU~ il pl'Ollihit cd .

        (4) Billing adju~l ll1en1S an d credi ts :lrc mnde no J~l cr Ihan the end of th e hilling year.

1'1;0'1'1<:: Security dC)lQS its prcl;o11lly made by memik'1'!! of the U.S . Forees to utility compan ies will b.-
r~funded no later than the cnd or lhe cUlunl b illing yur. Nc\\ Iy arriving pcl'$Onnd Ilfe not T"'lIIil'1.'d to
PllY a d..'I~i t ifthcY~'nroll in th ( UT Al',

   d. CIl';IOmcl'll must Q lablish aulomatic IItility-bi ll p"ymcnts 111I1.)Ullh the commun ity bank. a Gemillo
or Dutch Dan.... or a er.:dit union. The biUlking institution will provide 311 eight-digit bank l'Ode to Avuid
l~te tran~fen;.


    e . ~'ll)sl Ulili t)' .:ompltnics will dck'fll1i n<!:111 C'stim..11 cd (or prm'D.led) I1UlIllhly pllyment 11111011111
(Ab.rch/bg ill    Gcnll:t11 ~') for II dwelling.

                                                                 "


                                                               10 

      f. At too ~'nd of el1.:h ann ulil billing ~nod. utilit)' «>mpl1n i~s will infoml llS':1"5 " hether they
;':Ulls umoo mOT.: or l..-ss than the cstim~lcd consumplion amoon\. 11" lhey ha.w \."unsu lllcd mul".:. 311
additil)llal pOlynlCnt will ~ f\.'quin.:d and added 10 Ih~ next bill. If lhey ha\'e ':Oll.';ulIl ed less. tl1.:)' will
receivc a credit again.~1 the next billing I~od. A reconcili:llion wil1lllso be mad e \1 hen services arc
Icnn innl ed.

    g. Not latu thon 4 wcck.~ bero!".: vncati rlg priv:l1ely rented hous ing, the CUSt0I11t'T must llotiJy the
"fRO Ilr1l.lth c Illilit)' company 10 llIake an appointment IQr conducting It fiu;l l meier reading. Failure 10 do
~o m ay r.:llll!t in lines and penalliL-s bc-ing levied asai ll~t the cuslum~'rhy th;: Ulility compan y. TRO. Of
hoth. Cnslomcrs who change f"(.'sid ~nccs or util it)' pro l' id ~rs lml~t inroml tho TRO 10 reec il'll cOlllinu~d
tax_ rre~ §uppurl rUr utilities. Customers who do nnt pro vide thi ~ in lbnn:lt il)l1 to the TRO will nnt rece ive
tux eX"elilptinn.

     h. All en roll"""", f"" o f S77 will be chargcd to COI'"r adlll; ni strnth'c costs. 'lllis f"e CO "~r"$ II", 1:11li""
durutiQn Of 'CTl'i,,~ during an as:;; igrullcnt or lour with tile ~Il.me O..:nnull 01 Dut.::h address. 111is f~'io' i~ due
ut ea,,11 VAT omee where U.S. Fort.:s mcrnb.:rs request UTf\I' ~rviec :lIId \,hcn the adtlr.:ss .... rthe U.S.
f orces mcmher c hanges (fur c:l:amplc. the member mon:..\ rrum om: d welling to Mnothcr). r-,'Jilitary
membe\"!li und 00)) emp luye..s shu uld include this fl'e as a pari o f their hOll.'l ing and move· in expenses
on <lppropriat~ claims and r.. illlblllSemcnt fonus.

C-J, RP.f: I S'I' R,.\TIO~ REQ IRJo;~ I P.i"I"'S
To he el igihle rorlhe 1JTAP. tile follOll'i ng mUSI he              1)I"~ntcd        10 the TRO:

      a . .4.<,.111';: dut y or 00)) civilian ID card.

      b. Official ol'lk-rs (active duty on ly).

      c. SignL-d rental agrc.:m .. nl from ti,;:, hous in g rcferral olli« or landlord. or pmof o fho111O: ownership.

      d. Ulilit)' company hilling       infonn~t j on   for   e~ch   ulilily company used by the Scn'icemember.

   e. A         sn f"(.'gi~tral jon f~. 111i5 may be paid by cash, check. nll)lIcy or~r, ere dit eard, Qr Iral'elel"!l
chcd ...



      g. LITAP n.:gistr:tti on limll fil led OUI by Ihe t"l\stom.:r.

C-.&. UTAI' REQUESTS AN)) CONTRACTS

      :to To pan ic ip8lc in the UTAI'. personnel shou ld n.:<IIII:SI utilit y-tax rdief. Fi gure Coo I is <I ~amplc
            LQ\:a.1TROs will provide copies oflhcs<: n:(, llC~1S ond inrunn ~t iou on wh"rc: 10 s"nd them.
1"';\]11"$ 1.


   b. When II n:qm::st is appro\'·~d. thc f RO \1ill cOIJrdin atc wi lh ... ~n i cipat il1g ulilit y L'O rnp:rn ics to
pro"id~ lax-fr"~  ul iliti05. fi gun:s C-2 :IrId C-3 lite Sllindard m 'A1' contracts 10 be ~"Tllcud inlo hy TROs
with utility providml.

   e. TROs          '1m
                   help CII$tQllloC~ b)' all~wcring utili l}'.n:lat cd que~liorl$. trans lating docuJl1 eots,
detcnni ni ng lind expl aiuing bill rates. and hlllldl illg ot he r U1 il ily-n:illlcd ,Jroh len\S .



                                             I<E. Reg   21~SME
                                                                     ..
                                                                      inlt 1'·'02 .   z- NOoI09




                                                                     11 

U.S. Army Installation Management Command, Europe
Region Comments




    ~
                                        DEPARTMENT OF THE ARMY
                             UNITEO STATES ARMY INSTAlLAllOH MANAGEMENT COMMAND
                                                EUROPE REGION
                                               UNIT 213S3, 80X 200
                                               APO ~ 01014-&200



       IM EU- IR                                                                    OCl 28lOO!l

       MEMORA \i DUM TfIRU United States Amly          lnstall~~~mmand
       Jeffersun Da vIs Highway, Arlington. VA 22202·)926
                                                                                          (IM IR), 2511


       FOR Department of Defense Offtce of Inspector General (Aud it Office). Unit 23l52. APO A£
       09227·J 152

       SUBJECT: Command Reply, DOOIG Draft Repon, Audit of UtilityTsx. RcliefProgram in the
       . clhcrJaud!: (PmjC\:t No. 02009-ooooJ8-0144.000)


       I. IM COYJ -Europc has reviewed the subject draft report and concurs with the recommendation,
       ~onclllsions. and discussions. Spt..'Cific comments concerning the recommendation and target date
       arc enclosed.




       FO R THE DIRECTOR :




                                                        R '@'~
                                                        ~~ff
       End




                                                                     12
                                    IMCOM-Europe Reply to
                                    Draft DODIG Report for
                         Utility Tax Relief Program in tbe Netherlands
                             (ProJe" No. D2009-DOOOJB-OI44.000)

                         Utility Tax Relief Program in the Netberlands

Objective: Dctcnnine whether DOD is effC(:tively using the uti lity tax relief program in
Gemlun y and the Netherlands.

Conclusion:

    • DOD IS nut complyi ng with the requirements established by the Dutch Ministry of Finance
for DOD pen;onnel to receive tax-exempt utilitiL-s.

    • The program by the USAG Schinnen VAT office docs not guarantee the payment of
panll.:ip:mt tax-hoc utili ty bills. The program is not operating as intended because IM COM-
Europe has nOI provided written gu idance or adequate oversight. Noncompliance with bost-
narion requirements may adversely affect international relations as well as increase the chance of
the Dutch Gnv"''mment revoking the tax-relief privilege.

                                         Fo r the Director,
                              Click to add JPEG file
            United Sti tes Army lostillation Management Command, Europe Region

R!'Commcndalion : We n,·(.:ommcnd that the Director, IMCOM -Europc-

    • Uc:velop regulatory guidance that elearly o utlines the policy and proccdurt:s necessary to
Upt.T.ltC  a utility tax relief program in the Netherlands that complies with host-nation
requll"\..~ t;:nl:-; .

    • Munitor and assist in the implementation of the guidance developed.

Action Taken: Concur.

   • The IMCOM-Europe HNLFOA has already identifi",-d this maller, developed regulatory
guidanl:C:. : .t nd will amend AE Re~oulation 2 15-6 10 incorporate Ihe policy and procedures
necessary to operale the utility tax relief program in the Netherlands according to host-nation
requircnl (.:l\ts. The revisc.-d rCboulation should be published by 30 November 2009 .

    • '1he IMC'OM-Eurupe HNLFOA will also moni tor the implementation ofthl."Se policy and
proc",'(\urcs by USAG Schinnen.




                                                              13
U.S. Army Garrison Schinnen Comments 





                                            DEPA'ITMENT OF THE ARMY
                                        UNfTEO Sfll'!1;S AAJIY G"'RRIS~ SCHINNEN
                                                         Ut<i1T 21 602
                                                     APO Af ot1Q)'1eCl2




         Il<IEU·SCH· l<IW

         MEMORANDUM TIiRU                                 (J.;
         Commander,   USAG-Be1f~ 'JV~~~21419, APO AE 09708-1419
         Commander, Th1COM~E        e ' U-1R) Unit 29353. Box 200, APO AE 09014
         United Slates Anny   a11ation Management Command (1MlR), 25 11 Jefferson Davis High'NaY,
           Arlington, VA 22202-3926

         FOR Deparlmcnt of Defense Oflice of Inspector General. Audit Office, Unit 23152. APO AE
         09227

         SUBJECT: Command Reply, DOmG Draft Report, Audit of Uti lity Tax ReiiefProgram in the
         Netherlands (Project No. D2009-0000JB-0144.(00)

         1. [have reviewed and acknowledge the subject OODI0 report decailing the DoD requirement to
         have a fWlclional utility tax relief program in the N~tberlands. As described in the repon. the VAT
         program here at USAG Schinnen is not in compliance .....1th the DoD guidance. Specifically as
         detailed in the report, \...-e do no! have standing agreements with local utility companies
                                 Click to add JPEG file
         guaranteeing payment of delinquent accounts and we do not have an IMCOM· E approved v.Titten
         policy authlirizing and providing oversight for the utility ta.x relief program. It is common
         knowledge lhat noncompliar:ce .....-ith any host-nation requirement may negatively impac t
         international relations. In this instance. noncompliance may increase the c hance of the Netherlands
         Government revoking the tax relief prh-ilcge almgether.

         2. As recommended in the DOOIG report. .....e desperaldy need a policy approved by IMCOM-E
         before we can begin correc ting this problem at the !m,,'esl leveL I will coordinate through USAG
         Benelux to provide action o fficers as needed to wnrk with the Benel\J..x and IMCOM· E action
         officers to develop (he policy, This will ensure that the nuances we e:cperience here in lbe
         Nethcrland~ are completely understood 2Jld addressed in the tte"1N' poUcy, Timelines fot"
         implementation of the new policy will be developed once the new policy is received; however, the
         SOa! is not to exceed $ix months. lastly, we will ensure regular updates are provided through
         USAG Bem-Iux to IMCOM-E on our progress,




                                                                     14
                               USAG Schinoen Reply to
                               Draft DoDIG Report for
                    Utility Tax Relief Program in tbe Netberlands
                        (Project No. D2009-DOOOJB.0144.000)

                    Uillity Tax Relief Program in tbe Netberlands

Objective: Dctennine whether DOD is effectively using the utility tax relicfprogram in
Gennany and the Netherlands.

Conclusion: DOD is not complying with the requirements established by the
Netherlands Ministry of Finance for DOD persOIUlel to receive tax-exempt utilities.

The program by the USAG Schinnen VAT office does not guarantee payment of its
participants' tax-free utility bilts. The program is not operating as intended because
IMCOM -Europe has n01 provided written guidance or adequate oversight.
Noncompliance with the host-nation requirements may negatively impact international
relations as well as increase the chance of the Netherlands Government revoking the tax
reliefprivilege

                                 For the Commander,
                            U.S. Army Garrison Scbinnen

Recommendation 2: We recommend that the Garrison Commander, U,S. Anny
Ganison Schinnen, modity the CWTcnt Utility Ta.... Avoidance Program to comply with
                        Click to add JPEG file
the guidance developed by the Regional Director, U.S. Army Installation Management
Command - Europe as a result of Recommendation l.a.


Action Taken: Concur. The Commander ofUSAG Schinnen, in coordination with
USAG Benelux, will modify the Utility Tax Avoidance Program to comply with the
guidance devt:lopoo by tht: Regional Director in response to recommendation 1.a. The
progmm will be modified to comply with the new guidance within 2 months of the date
that it is issued. The Garrison will also report implementation of the program
modifications to the LMCOM Europe HNL- FOA.




                                                         15
